Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




IMPACT ON MEDICARE PROGRAM
FOR INVESTMENT INCOME THAT
   MEDICARE PART D PLANS
 EARNED AND RETAINED FROM
  MEDICARE FUNDS IN 2009


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       April 2013
                                                     A-07-11-05017
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 amended the
Social Security Act (the Act) to establish the Voluntary Prescription Drug Benefit Program,
known as Medicare Part D. The Centers for Medicare & Medicaid Services (CMS) finances
Part D through the Supplementary Medical Insurance trust fund. The assets of the trust fund are
held in special-issue U.S. Treasury securities, which earn interest income. CMS contracts with
private, stand-alone drug plans and private Medicare Advantage health plans that have a drug
coverage component (which we collectively refer to as “Part D plans”) to offer Medicare
beneficiaries options to voluntarily purchase a prescription drug benefit under Part D.

Pursuant to section 1860D-15 of the Act, CMS makes advance capitated payments
(prepayments) to Part D plans for each enrollee at the beginning of each month. Part D plans
may invest these Medicare funds in interest-bearing instruments until the funds are needed to pay
for drug costs and administrative services. Federal law does not currently limit the ability of
Part D plans to retain as additional revenue the investment income earned on Federal funds.
Part D plans must submit, annually, bid proposals containing their anticipated revenue
requirements for providing drug coverage under each of their plans for the upcoming year.

During calendar year (CY) 2009, CMS paid 706 Part D plans approximately $45 billion in
prepayments. We reviewed 52 selected Part D plans to estimate the investment income earned
from Medicare funds received in CY 2009 and thereby estimate the investment income that the
706 plans earned.

OBJECTIVE

Our objective was to estimate the financial impact on Medicare of limiting the ability of Part D
plans to retain investment income earned on Medicare funds.

SUMMARY OF FINDINGS

On the basis of our reviews of 52 Part D plans, we determined that in CY 2009, the 706 Part D
plans held Medicare funds for approximately 20 days before paying for pharmacy claims.
Specifically:

   •   If Federal requirements had been established to delay the prepayments to Part D plans
       until after the beginning of the beneficiary’s coverage period (similar to the Federal
       Employees Health Benefits (FEHB) program) by the same 20 days that the plans held
       Medicare funds, the Medicare Part D trust fund could have earned approximately
       $111.2 million of interest income in CY 2009.

   •   Alternatively, if Federal requirements had been established to require Part D plans to
       reduce their revenue requirements in their bid proposals to account for anticipated




                                                i
       investment income that the plans earned over the same 20 days, Medicare could have
       saved an estimated $5.3 million that the 706 plans earned in CY 2009.

Because Federal requirements governing Medicare Part D do not limit the ability of Part D plans
to retain investment income earned on Medicare funds, Medicare loses potential cost savings. In
contrast to the Federal requirements that govern Part D, the FEHB program limits the ability of
companies to retain as additional revenue the investment income earned from Federal funds. We
therefore encourage CMS to study these audit results, consider the impact of the investment
income earned on Medicare funds, and review our findings and recommendation to improve the
economy and efficiency of Part D.

RECOMMENDATION

We recommend that CMS evaluate these audit results and, in the context of its joint efforts with
the U.S. Department of the Treasury, either:

   •   pursue legislation to adjust the timing of Medicare’s prepayments to Part D plans to
       account for the time that these plans invest Medicare funds before paying pharmacy
       claims

       or

   •   develop and implement regulations that require Part D plans to reduce their revenue
       requirements in their bid proposals to account for anticipated investment income.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our recommendation because,
in CMS’s judgment, the implementation of either option would cause most Part D plans to
increase their bid proposals to recoup the investment income that they would lose, which would
result in a decrease in most or all of the estimated cost savings. CMS also stated that
implementing either option could create an undesirable precedent that could result in CMS’s
making additional payments to Medicare Part C and Part D plans. CMS added that it assumes
that it would be asked to pay interest on the additional payments that CMS frequently makes to
Part D plans after the completion of the risk adjustment reconciliation each year and said that
“[w]e believe a statutory change would be required to impose such an obligation on CMS ….”

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we maintain that our findings and recommendation are valid.
We agree with CMS’s statement that if Part D plans were to increase their bid proposals, our
estimated cost savings would be reduced. However, we disagree with CMS’s assertion that
implementing our recommendation would result in a decrease in most or all of the estimated cost
savings. Specifically, any decrease in the estimated cost savings caused by increases in Part D
plans’ bid proposals would be minimized because of the difference between the higher interest
earned by the Medicare trust funds and the lower interest earned by Part D plans.



                                                ii
We agree that if CMS were required to pay interest on additional Part D payments made after the
risk adjustment reconciliation, the estimated savings we have identified would be reduced.
However, it is not clear that Congress would enact legislation to require CMS to pay interest on
these additional payments or allow the Part D plans to include investment income in their bid
proposals.




                                               iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicare Part D Program ..............................................................................................1
         Joint Centers for Medicare & Medicaid Services and Treasury Efforts
            Regarding Cash Management ...................................................................................1
         Prior Office of Inspector General Audit of Medicare Part C Plans ...............................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................2
         Objective ........................................................................................................................2
         Scope ..............................................................................................................................2
         Methodology ..................................................................................................................2

FINDINGS AND RECOMMENDATION.................................................................................3

      LACK OF POLICIES REGARDING TREATMENT OF INVESTMENT INCOME
        IN MEDICARE PART D .................................................................................................4

      TREATMENT OF INVESTMENT INCOME IN MEDICARE PART D PLANS ..............4

      LOST OPPORTUNITY FOR EARNINGS FOR THE
        MEDICARE PART D TRUST FUND .............................................................................5

      LOST OPPORTUNITY FOR COST SAVINGS FOR MEDICARE PART D.....................5

      TREATMENT OF INVESTMENT INCOME IN THE
        FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM.......................................5

      CONCLUSION ......................................................................................................................6

      RECOMMENDATION .........................................................................................................6

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........................6

      OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................7

APPENDIXES

      A: SELECTION AND ESTIMATION METHODOLOGIES

      B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

Medicare Part D Program

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 amended the
Social Security Act (the Act) to establish the Voluntary Prescription Drug Benefit Program,
known as Medicare Part D. 1 The Centers for Medicare & Medicaid Services (CMS) finances
Part D through the Supplementary Medical Insurance trust fund. The assets of the trust fund are
held in special-issue U.S. Treasury securities, which earn interest income. CMS contracts with
private, stand-alone drug plans and private Medicare Advantage health plans that have a drug
coverage component (which we collectively refer to as “Part D plans”) to offer Medicare
beneficiaries options to voluntarily purchase a prescription drug benefit under Part D. 2

Pursuant to section 1860D-15 of the Act, CMS makes advance capitated payments
(prepayments) to Part D plans for each enrollee at the beginning of each month. Part D plans
may invest these Medicare funds in interest-bearing instruments until the funds are needed to pay
for drug costs and administrative services. Federal law does not currently limit the ability of
Part D plans to retain as additional revenue the investment income earned on Federal funds.
Part D plans must submit, annually, bid proposals containing their anticipated revenue
requirements for providing drug coverage under each of their plans for the upcoming year.

During calendar year (CY) 2009, CMS paid 706 Part D plans approximately $45 billion in
prepayments. We reviewed 52 selected Part D plans to estimate the investment income earned
from Medicare funds received in CY 2009 and thereby estimate the investment income that the
706 plans earned.

Joint Centers for Medicare & Medicaid Services and Treasury Efforts
Regarding Cash Management

In January 2009, the Government Accountability Office (GAO) issued a report 3 concerning the
financial impact of the differences between the time that the U.S. Department of the Treasury
(Treasury) receives cash to fund a program and the time that it disburses cash to the program.
GAO reported that payments made at the beginning of the month, including payments to Part D
plans, contributed to misalignment of cash flows because Treasury did not receive much of its
cash until midmonth. GAO recommended that Treasury and CMS “… expeditiously convene a
joint interagency effort to study options identified by GAO and any other options that would
improve Treasury’s ability to manage cash flow and reduce overall interest costs while not


1
 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173, § 101, Social
Security Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a).
2
    The Medicare Advantage program (Part C) offers managed care options to Medicare beneficiaries.
3
 GAO-09-118, Debt Management: Treasury’s Cash Management Challenges and Timing of Payments to Medicare
Private Plans, January 30, 2009.


                                                         1
unduly increasing administrative burden for CMS.” Both Treasury and CMS agreed with GAO’s
recommendation.

Prior Office of Inspector General Audit of Medicare Part C Plans

We audited Medicare Part C plans 4 for CY 2007 and concluded that if Federal requirements had
been established to delay prepayments to Medicare Advantage (MA) organizations (Part D
plans) by the 46 days that we estimated that MA organizations held Medicare funds before
paying for services, the Medicare trust funds that finance Part C could have earned
approximately $450 million of interest income in CY 2007. Alternatively, if Federal
requirements had been established to require MA organizations to reduce their revenue
requirements in their bid proposals to account for anticipated investment income, Medicare could
have saved an estimated $376 million in CY 2007. This report made a two-part recommendation
to CMS to either pursue legislation to adjust the timing of Medicare’s prepayments or require
MA organizations to reduce their revenue requirements in their bid proposals to account for
anticipated investment income. While CMS did not concur with our recommendation, we
maintained that our findings and recommendation were valid.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to estimate the financial impact on Medicare of limiting the ability of Part D
plans to retain investment income earned on Medicare funds.

Scope

We reviewed the approximately $45 billion of prepayments made to 706 Part D plans during
CY 2009.

We did not review CMS’s system of internal controls because our objective did not require us to
do so.

Methodology

To accomplish our objective, we did the following:

    •   We reviewed Federal requirements to understand:

            o how CMS earns interest income from the assets held in the Part D trust fund and
              how CMS makes payments to Part D plans and



4
 Rollup Review of Impact on Medicare Program for Investment Income That Medicare Advantage Organizations
Earned and Retained From Medicare Funds in 2007 (A-07-10-01080, January 18, 2011).



                                                    2
           o how companies participating in the Federal Employees Health Benefits (FEHB)
             program manage cash.

   •   We interviewed CMS officials and sent questions to Part D plan officials to gain an
       understanding of the treatment of investment income for Part D, such as inclusions in the
       plans’ bids.

   •   We reviewed the findings and recommendations of the GAO report regarding cash
       management.

   •   We obtained from CMS the prospective payment amounts from the plan payment reports
       paid to the Part D plans that participated in Part D during CY 2009.

   •   From the 2010 Annual Report of the Boards of Trustees of the Federal Hospital
       Insurance and Federal Supplementary Medical Insurance Trust Funds, we determined
       the effective annual rates of interest earned by the assets of the Part D trust fund for
       CY 2009.

   •   We analyzed 52 Part D plans to estimate the investment income that the plans could have
       earned and the average number of days that the 706 Part D plans held funds until paying
       providers for pharmacy claims. Appendix A contains details on how we selected the 52
       plans and the estimation methodologies that we used.

   •   We calculated the interest income that the trust fund could have earned if CMS had
       delayed its prepayments to Part D plans. To make these calculations, we used the total
       prepayments, the effective annual rates of interest earned by the assets of the trust fund,
       and the estimated average number of days that the 706 Part D plans held funds until
       paying pharmacy claims.

   •   We discussed the results of our review with CMS officials on September 12, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

On the basis of our reviews of 52 Part D plans, we determined that in CY 2009, the 706 Part D
plans held Medicare funds for approximately 20 days before paying for pharmacy claims.
Specifically:

   •   If Federal requirements had been established to delay the prepayments to Part D plans
       until after the beginning of the beneficiary’s coverage period (similar to the FEHB
       program) by the same 20 days that the plans held Medicare funds, the Medicare Part D


                                                 3
         trust fund could have earned approximately $111.2 million of interest income in
         CY 2009.

    •    Alternatively, if Federal requirements had been established to require Part D plans to
         reduce their revenue requirements in their bid proposals to account for anticipated
         investment income that the plans earned over the same 20 days, Medicare could have
         saved an estimated $5.3 million that the 706 plans earned in CY 2009. 5

Because Federal requirements governing Medicare Part D do not limit the ability of Part D plans
to retain investment income earned on Medicare funds, Medicare loses potential cost savings. In
contrast to the Federal requirements that govern Part D, the FEHB program limits the ability of
companies to retain as additional revenue the investment income earned from Federal funds. We
therefore encourage CMS to study these audit results, consider the impact of the investment
income earned on Medicare funds, and review our findings and recommendation to improve the
economy and efficiency of Part D.

LACK OF POLICIES REGARDING TREATMENT OF INVESTMENT INCOME
IN MEDICARE PART D

Federal requirements governing Medicare Part D do not limit the ability of Part D plans to retain
investment income earned on Medicare funds. Specifically, neither Federal regulations nor CMS
guidelines require Part D plans to include anticipated investment income earned on Medicare
funds in their bid proposals.

TREATMENT OF INVESTMENT INCOME IN MEDICARE PART D PLANS

We found that 51 of the 52 Part D plans that we reviewed did not reduce their anticipated
revenue requirements by anticipated investment income in their bid proposals for CY 2009. We
also found that the 52 plans invested the prepayments and earned an estimated $3.9 million of
investment income from Medicare funds they received in CY 2009.

We used our analysis of the 52 Part D plans to estimate that, in the aggregate, the 706 Part D
plans invested Medicare funds in interest-bearing instruments for approximately 20 days before
paying providers for pharmacy claims.




5
  The difference in potential savings ($111.2 million compared to $5.3 million) between the two alternatives is
primarily because of the variance between short-term rates earned by the Part D plans and longer term rates earned
by the Medicare Part D trust fund. During CY 2009, short-term rates hit historic lows and dropped more in relative
terms than longer term rates did. Part D plans could invest the prepaid capitation payments for short terms until the
funds were needed to pay for prescription drugs. By contrast, the Medicare Part D trust fund held longer term
investments, which yielded significantly higher rates. Thus, the potential savings are much higher for delaying
capitated payments to the Part D plans compared to the potential savings for requiring the plans to reduce their
revenue requirements to account for anticipated investment income.



                                                          4
LOST OPPORTUNITY FOR EARNINGS FOR THE
MEDICARE PART D TRUST FUND

If Federal requirements had been established to delay the prepayments to Part D plans until after
the beginning of the beneficiary’s coverage period (similar to the FEHB program) by the same
20 days that the Part D plans held Medicare funds, the Part D trust fund could have earned
approximately $111.2 million of interest income in CY 2009.

We calculated this potential interest income with the assumption that the Federal Government
would have invested its total prepayments to Part D plans ($45 billion) in interest-bearing
instruments for 20 additional days at rates equal to the effective annual rates of interest that the
Part D trust fund earned (4.4 percent) in CY 2009.

LOST OPPORTUNITY FOR COST SAVINGS FOR MEDICARE PART D

If Federal requirements had been established to require Part D plans to reduce their revenue
requirements in their bid proposals to account for anticipated investment income, Medicare could
have saved an estimated $5.3 million that the 706 Part D plans earned by investing the
prepayments for approximately 20 days in CY 2009.

We estimated the potential savings of $5.3 million for the 706 Part D plans using our reviews of
the selected plans, in which we found that the 52 plans earned approximately $3.9 million of
investment income from Medicare funds. Appendix A contains details of our estimation
methodologies.

TREATMENT OF INVESTMENT INCOME IN THE
FEDERAL EMPLOYEES HEALTH BENEFITS PROGRAM

Unlike Medicare Part D, the FEHB program limits the ability of companies to retain as
additional revenue the investment income earned from Federal funds. The U.S. Office of
Personnel Management (OPM) pays insurance companies offering managed care coverage
through the FEHB program after the start of the employees’ insurance coverage periods (as
provided for in OPM’s FEHB program Carrier Handbook, chapter VII). As a result, insurance
companies participating in the FEHB program have more limited opportunities to generate
investment income than Part D plans do. Moreover, if the possibility of earning investment
income exists, OPM’s FEHB regulations (48 CFR §§ 1615.470-1 and 1652.215-71) require that
a clause be inserted in the FEHB carrier contract that requires the carrier to retain all investment
income in the FEHB program’s reserves for use in the operation of the FEHB program. (See
5 CFR § 890.503.)

No such policies limit the ability of Part D plans to retain as additional revenue the investment
income earned from Federal funds.




                                                  5
CONCLUSION

This review of Medicare Part D for CY 2009 demonstrates the money that might have been
saved if Federal regulations or guidelines had limited the ability of Part D plans to retain
investment income earned on Medicare funds. Moreover, for CY 2009, the lack of Federal
requirements governing treatment of investment income earned within Part D stood in contrast to
the Federal requirements governing the FEHB program. This lack of Federal regulations or
guidelines caused a financial impact to Medicare in CY 2009: Part D plans held Medicare funds
for approximately 20 days and earned investment income of an estimated $5.3 million, and the
Part D trust fund lost out on a potential investment income of approximately $111.2 million.

We therefore encourage CMS to study these audit results; consider the impact of the investment
income earned on Medicare funds in conjunction with its joint efforts with Treasury to improve
Treasury’s ability to manage cash flow and reduce overall interest costs; and review our findings
and recommendation, which identify mechanisms to improve the economy and efficiency of
Medicare Part D.

RECOMMENDATION

We recommend that CMS evaluate these audit results and, in the context of its joint efforts with
Treasury, either:

   •   pursue legislation to adjust the timing of Medicare’s prepayments to Part D plans to
       account for the time that these plans invest Medicare funds before paying pharmacy
       claims

       or

   •   develop and implement regulations that require Part D plans to reduce their revenue
       requirements in their bid proposals to account for anticipated investment income.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS did not concur with our recommendation because,
in CMS’s judgment, the implementation of either option would cause most Part D plans to
increase their bid proposals to recoup the investment income that they would lose. Specifically,
CMS said that “[i]f the Part D plans were to increase their bid proposals to account for the
proposed offsets, these higher costs would be recognized in the bid proposals and would result in
a decrease in most or all of the estimated cost savings.”

CMS also stated that implementing either option could create an undesirable precedent. CMS
assumes that it would be asked to pay interest on the additional payments that CMS frequently
makes to Part C and Part D plans after the completion of the risk adjustment reconciliation each
year. CMS said that “[w]e believe a statutory change would be required to impose such an
obligation on CMS ….” CMS stated that the payment of this interest would result in a further
decrease in estimated cost savings.


                                                6
CMS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing CMS’s comments, we maintain that our findings and recommendation are valid.
We agree with CMS’s statement that if Part D plans were to increase their bid proposals, our
estimated cost savings would be reduced. However, for the following reasons, we disagree with
CMS’s assertion that implementing our recommendation would result in a decrease in most or all
of the estimated cost savings:

   •   Market competition may create a disincentive for some Part D plans to increase their bid
       proposals. Part D plans can provide additional benefits to their enrollees if the Part D
       plans’ bid proposals are below CMS-established benchmarks. However, increases in the
       bid proposals that either approach or exceed benchmark levels would cause decreases to
       these additional benefits, thus making those plans less attractive to enrollees. In its report
       concerning cash management, GAO stated that CMS’s Office of the Actuary had noted
       that some Part D plans might be unwilling to increase their bid proposals “if doing so
       risks losing market share” (GAO-09-118).

   •   Generally, the Medicare trust funds yield higher interest returns with long-term
       investments than what Part D plans earn with short-term investments. Thus, any decrease
       in the estimated cost savings caused by increases in Part D plans’ bid proposals would be
       reduced because of the difference between the higher interest earned by the Medicare
       trust funds and the lower interest earned by Part D plans.

       Part D plans invested the prepaid payments for short terms until the funds were needed to
       pay for pharmacy claims. During our review period, the Medicare trust funds earned
       significantly higher interest rates than the Part D plans did. The short-term interest rates
       earned by the Part D plans averaged 0.37 percent. In contrast, the Medicare Part D trust
       fund, which holds longer term investments, earned interest at an annual rate of
       4.4 percent.

       Consequently, even if Part D plans increased their bid proposals to account for lost
       investment income caused by delayed payments, most of the estimated savings would be
       maintained because the Medicare trust funds realize higher interest rates on their
       investments than do the Part D plans.

We agree that if CMS were required to pay interest on additional Part D payments made after the
risk adjustment reconciliation, the estimated savings we have identified would be reduced.
However, it is not clear that Congress would enact legislation to require CMS to pay interest on
these additional payments or allow the Part D plans to include investment income in their bid
proposals to increase their bid proposals.




                                                 7
APPENDIXES
                                                                                      Page 1 of 2


         APPENDIX A: SELECTION AND ESTIMATION METHODOLOGIES

SELECTION OF 52 MEDICARE PART D PLANS

We selected 52 Medicare Part D plans using a survey (2 plans) and both judgmental (30 plans)
and random (20 plans) samples. We judgmentally selected and surveyed two plans. (We began
our review with a survey of two plans to develop this review’s methodology.) From the
remaining 704 plans (706 total plans less the 2 surveyed plans), we judgmentally sampled the 30
largest plans on the basis of total payments received from the Centers for Medicare & Medicaid
Services (CMS). We then selected a random sample of 20 plans from the 674 remaining plans
(706 total plans less the 2 surveyed plans and the 30 judgmentally selected plans).

ESTIMATION OF POTENTIAL COST SAVINGS FOR
MEDICARE PART D

We used the results of our analysis of the 52 Part D plans to estimate the investment income that
the 706 plans earned on Medicare funds during calendar year (CY) 2009. Specifically, we
estimated the investment income that the plans earned only on the portion of the advance
capitation payments (prepayments) that would be used to pay pharmacy claims during CY 2009.
We did not estimate the investment income that the plans might have earned on the remaining
portions of their Medicare funding, which were for nonbenefit expenses, gain/loss margins, or
Federal reinsurance. We did not include any retroactive adjustments made by CMS in our
estimates of investment income.

In total, the 706 Part D plans earned an estimated $5.3 million of investment income from
Medicare funds received in CY 2009. This amount consisted of:

   •   $346,595 earned by the 2 judgmentally selected and surveyed plans,

   •   $3,513,569 earned by the 30 judgmentally selected plans,

   •   $48,816 earned by the 20 randomly sampled plans, and

   •   $1,374,061 earned by the 654 remaining plans (estimated on the basis of the results of the
       20 randomly sampled Part D plans).

We used the same time periods and interest rates that we used in our review of the 20 randomly
sampled Part D plans to estimate the earnings of the 654 remaining plans.
                                                                                                      Page 2 of 2


CALCULATION OF POTENTIAL EARNINGS FOR THE
MEDICARE PART D TRUST FUND

Estimated Number of Days That Medicare Part D Plans Held Medicare Funds

We estimated that the 706 Part D plans held the Medicare funds for approximately 20 days
before paying pharmacy claims in CY 2009. The number of days between the plans’ receipt of
prepayments from CMS and the plans’ payments to providers for pharmacy claims varied for the
52 plans that we reviewed. To estimate the average number of days that all 706 plans held
Medicare funds in CY 2009 until they paid their claims, we used:

    •   $25.6 billion of prepayments that we estimated that plans used to pay for pharmacy
        claims (out of a total of $45 billion prepayments);

    •   $5.3 million of estimated investment income; and

    •   an interest rate of 0.37 percent, 1 which we estimated that plans earned when they invested
        Medicare funds.

Calculation of Potential Interest Income

CMS finances Medicare Part D through the Supplementary Medical Insurance trust fund. We
calculated the potential interest income with the assumption that the Federal Government
invested its total prepayments to Part D plans ($45 billion) in interest-bearing instruments for the
same 20-day periods and the same annual rates of interest that the Part D trust fund earned
(4.4 percent) in CY 2009.




1
  For the 52 selected Part D plans, we used 30-day AA Financial Commercial Paper interest rates obtained from the
Federal Reserve to estimate the investment income earned unless a plan provided the actual interest rates earned. To
calculate the 0.37 percent, we combined results of the 2 judgmentally selected and surveyed plans, the 30
judgmentally selected plans, and the estimated results from the 674 remaining plans (estimated from the results of
the 20 randomly selected plans).
                                                                                                               Page 1 of2


APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS



          DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid Services


                                                                                     Office of the Administrator
                                                                                     Washington, DC 20201




      DATE :            FEB 1 4 2013
      TO:             Daniel R. Levinson


      FROM:


      SUBJECT:        Office of Ins pector General (OIG) Draft Report: " Impact on Medicare Program for
                      Investment Income that Medicare Part D Plans Earned and Retained from Medicare
                      Funds in 2009" (A-07-11 -050 17)


      Thank yo u for the opportunity to review and comment o n the above s ubject OIG draft report,
      which aims to estimate the financial impact on the Medicare prescription drug benefit (Part D)
      program of potentially limiting the ability of Part D plans to retain investment income earned on
      prepayment from Medicare before paying pharmacy claims. The Centers for Medicare &
      Medicaid Services (CMS) shares the OIG's concern re garding lo sing potential cost savings
      associated with the Medicare Part D program. Howeve r, we do not agree with the OIG that
      limiting the ability of Part D plans to retain investment income earned on Medicare funds would
      result in such savings.

      Below is the CMS response to the OIG recommendations in the draft report.

      OIG Recommendation

      The OIG recommends that CMS review the OIG' s audit findings and either: (1) pursue
      legislation to adjust the timing of Medicare's prepayments to Part D plans to account for the time
      that these plans invest Medicare funds before paying pharmacy claims, or (2) develop and
      implement regulations that require Part D plans to reduce their revenue requirements in their bid
      proposals to account for anticipated investment income.

       CMS Res ponse

       The C MS does not concur with the OIG' s recommendations. C MS believes that implementing
       either option would cause most Part D plans to increase their bid proposals in order to recoup
       investment income that they would lose. If the Part D plans were to increase the ir bid proposals
       to account for the proposed offsets, these higher costs would be recognized in the bid proposals
       and would result in a decrease in most or all of the estimated cost savings. This fact is identified
       in the report but not reflected in the savings estimate. Therefore, we believe that the report
                                                                                                     Page 2 of2




Page 2- Daniel R. Levinson


overstates the significance of this issue since the true savings would be a fraction of the amount
cited in the draft.

In addition, CMS believes that either option could create an undesirable precedent that results in
CMS making additional payments to Medicare Advantage organizations and Part D plans.
Following the end ofa coverage year, CMS is statutorily required to reconcile the multiple
interim payments made to plans throughout the year in order to make a final payment
determination. After the final reconciliation is complete, CMS typically owes Medicare funds to
plans. For example, risk adjustment reconciliation for Part D plans takes place in August. CMS
pays plans additional payments based on additional risk adjustment data that we receive from
plans. It is reasonable to assume that CMS would be asked to pay interest on these funds if we
implemented either option recommended by the OIG. We believe a statutory change would be
required to impose such an obligation on CMS. However, ifCMS were required to pay interest
on these funds, as plans are required to pay or otherwise account for interest on retained
Medicare funds, it would likely result in a further decrease in the estimated cost savings.

For these reasons, CMS does not agree with the OIG that limiting the ability of Part D plans to
retain investment income earned on Medicare funds would result in savings to the program.

We appreciate the effort that went into this report. Again, we thank OIG for the opportunity to
review and comment.
